NO:

IN THE
SUPREME COURT OF THE UNITED STATES

TOMMY FINDLEY,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF SERVICE
I certify that on December 28, 2020, in accordance with the Court’s April
15, 2020 Order regarding the filing of documents, a single copy of the (1) Petition for
Writ of Certiorari, (2) Motion for Leave to Proceed InForma Pauperis, (3)
Certificate of Service, and (4) Declaration Verifying Timely Filing, was deposited
with a third party commercial carrier for delivery to the Court within three
calendar days. A copy of the same was served via e-mail upon the Solicitor
General of the United States, at SupremeCtBriefs@usdoj.gov.
MICHAEL CARUSO
Federal Public Defender
Miami, Florida
December 28, 2020

By:

s/Tracy Dreispul
Tracy Dreispul
Assistant Federal Public Defender
150 West Flagler Street, Suite 1500
Miami, Florida 33130-1555
(305) 536-6900

